fos
|

C@OCKLE

- E-Mail Address:
Legal Bricfs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-846

CLUB ONE CASINO, INC., dba CLUB ONE CASINO,
GLCR, INC., dba THE DEUCE LOUNGE AND CASINO,
Petitioners,
vs.

DEB HAALAND, Secretary of the Interior,
in her official capacity; BRYAN NEWLAND,
Principal Deputy Assistant Secretary of the
Interior — Indian Affairs, in his official capacity;
UNITED STATES DEPARTMENT OF THE INTERIOR,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2991 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of May, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

erate Kesee. 0. Linoa? Ondiao- tt, Che

‘My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 41004
